1212 Huxley St
Madison, WI 53704-4224
1-888-432-8496

Visa Platinum Card
Visa Platinum Secured Card
Visa Signature Rewards Card
Consumer Credit Card Agreement
In this Agreement, “Agreement” means this Consumer
Credit Card Agreement. “Disclosure” means the
Credit Card Account Opening Disclosure. The
Account Opening Disclosure is incorporated into this
Consumer Credit Card Agreement and is part of the
Agreement. In this Agreement the words "you," “your,”
and "yours" mean each and all of those who agree to
be bound by this Agreement; "card" means the Visa
credit card and any duplicates, renewals, or
substitutions the Credit Union issues to you; "account"
means your Visa credit card line-of-credit account
with the Credit Union; and "Credit Union" means the
Credit Union whose name appears on this Agreement
or anyone to whom the Credit Union transfers this
Agreement.
1. USING YOUR ACCOUNT - If you are approved for
an account, the Credit Union will establish a line of
credit for you. You agree that your credit limit is the
maximum amount (purchases, cash advances,
finance charges, plus "other charges") which you will
have outstanding on your account at any time. Unless
disclosed otherwise, the Credit Union will not allow
advances over the credit limit. If the Credit Union has
a program whereby it allows payment of advances
that exceed your credit limit, subject to a fee, the
Credit Union will provide you with notice, either orally,
in writing, or electronically (notwithstanding the
requirements of the paragraph entitled “Statements
and Notices”) explaining your right to opt in to the
Credit Union’s program whereby it will honor advance
requests over the credit limit. In the event you opt in
to such a program, you agree to the terms of such a
program. You may request an increase in your credit
limit only by a method acceptable to the Credit Union.
The Credit Union may increase or decrease your
credit limit, refuse to make an advance and/or
terminate your account at any time for any reason not
prohibited by law. If you are permitted to obtain cash
advances on your account, we may, from time to time,
issue convenience checks to you that may be drawn
on your account. Convenience checks may not be
used to make a payment on your account balance. If
you use a convenience check, it will be posted to your
account as a cash advance. We reserve the right to
refuse to pay a convenience check drawn on your

account for any reason and such refusal shall not
constitute wrongful dishonor.
You may request that we stop the payment of a
convenience check drawn on your account. You
agree to pay any fee imposed to stop a payment on a
convenience check issued on your account. You may
make a stop payment request orally, if permitted, or in
writing. Your request must be made with sufficient
time in advance of the presentment of the check for
payment to give us a reasonable opportunity to act on
your request. In addition, your request must
accurately describe the check including the exact
account number, the payee, any check number that
may be applicable, and the exact amount of the
check. If permitted, you may make a stop payment
request orally but such a request will expire after 14
days unless you confirm your request in writing within
that time. Written stop payment orders are effective
only for six (6) months and may be renewed for
additional six month periods by requesting in writing
that the stop payment order be renewed. We are not
required to notify you when a stop payment order
expires. If we re-credit your account after paying a
check or draft over a valid and timely stop payment
order, you agree to sign a statement describing the
dispute with the payee, to assign to us all of your
rights against the payee or other holders of the check
or draft and to assist us in any legal action. You agree
to indemnify and hold us harmless from all costs and
expenses, including attorney's fees, damages, or
claims, related to our honoring your stop payment
request or in failing to stop payment of an item as a
result of incorrect information provided to us or the
giving of inadequate time to act upon a stop payment
request.
2. USING YOUR CARD - You understand that the
use of your credit card or credit card account will
constitute acknowledgement of receipt and
agreement to the terms of the Credit Card Agreement
and Credit Card Account Opening Disclosure
(Disclosure). You may use your card to make
purchases from merchants and others who accept
your card. The credit union is not responsible for the
refusal of any merchant or financial institution to
honor your card. If you wish to pay for goods or
services over the Internet, you may be required to
provide card number security information before you
will be permitted to complete the transaction. In
addition, you may obtain cash advances from the

Credit Union, from other financial institutions that
accept your card, and from some automated teller
machines (ATMs). (Not all ATMs accept your card.) If
the credit union authorizes ATM transactions with
your card, it will issue you a personal identification
number (PIN). To obtain cash advances from an
ATM, you must use the PIN issued to you for use with
your card. You agree that you will not use your card
for any transaction that is illegal under applicable
federal, state, or local law. Even if you use your card
for an illegal transaction, you will be responsible for all
amounts and charges incurred in connection with the
transaction. If you are permitted to obtain cash
advances on your account, you may also use your
card to purchase instruments and engage in
transactions that we consider the equivalent of cash.
Such transactions will be posted to your account as
cash advances and include, but are not limited to,
wire transfers, money orders, bets, lottery tickets, and
casino gaming chips, as applicable. This paragraph
shall not be interpreted as permitting or authorizing
any transaction that is illegal.
3. PROMISE TO PAY - You promise to pay all
charges (purchases, cash advances, balance
transfers, use of convenience checks or any other
charge) made to your account by you or anyone you
authorize to use your account. You also promise to
pay all finance charges and other charges added to
your account under the terms of this Agreement or
another agreement you made with the Credit Union. If
this is a joint account, the paragraph on JOINT
ACCOUNTS also applies to your account.
4. PERIODIC RATES - The periodic rates applicable
to purchases, cash advances, and balance transfers
are disclosed on the Disclosure that accompanies this
Agreement. Any penalty rate that may be imposed for
failing to make a payment by the payment due date is
also disclosed on the Disclosure. Any rate change will
be made pursuant to applicable law. If the rate for
your account is variable, as indicated on the
accompanying Disclosure, the rate charged on
purchases, cash advances, balance transfers and any
penalty rate will vary periodically as disclosed in the
Disclosure accompanying this Agreement. The initial
rate on your account for certain types of transactions
may be an introductory discounted rate (Introductory
Rate) that is lower than the rate that would ordinarily
apply for that type of transaction. If an Introductory
Rate applies to your account, the rates and the period
of time it will be effective is shown on the Disclosure
accompanying this Agreement. After the Introductory
Rate period expires, the periodic rate will
automatically increase to the rates that would
ordinarily apply for that type of transaction based on
the terms of this Agreement.

Variable rates may change when the Prime Rate
changes. We calculate variable rates by adding a
percentage to the Prime Rate published in The Wall
Street Journal on the 25th day of each month. If the
Journal is not published on that day, then see the
immediately preceding edition. If Prime changes, your
new rate will take effect on your next billing period. If
the APR associated with an offer is variable, the APR
will equal: Non-introductory Purchase APR - Prime
plus a margin between 4.74% and 14.74%.
5. FINANCE CHARGES - New purchases posted to
your account during a billing cycle will not incur a
finance charge for that billing cycle. Finance charge
begins to accrue on those purchases from the first
day of the next billing cycle, unless you paid the entire
new balance on the previous cycle’s billing statement
by the payment due date of that statement. To avoid
an additional finance charge on the balance of
purchases, you must pay the entire new balance on
the billing statement by the payment due date of that
statement. A finance charge begins to accrue on cash
advances from the date you get the cash advance or
from the first day of the billing cycle in which the cash
advance is posted to your account, whichever is later
(transaction date).
The finance charge is calculated separately for
purchases and cash advances. For purchases, the
finance charge is computed by applying the periodic
rate to the average daily balance of purchases. To
calculate the average daily balance of purchases, we
take the beginning outstanding balance of purchases
each day and subtract any payments and/or credits
that we apply to the purchase balance. (We do not
add in any purchases posted during the billing cycle.)
This gives us the daily balance of purchases. We then
add all of the daily balances of purchases for the
billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the
average daily balance of purchases.
For cash advances, the finance charge is computed
by applying the periodic rate to the average daily
balance of cash advances. To calculate the average
daily balance of cash advances, we take the
beginning outstanding balance of cash advances
each day, add in any new cash advances, and
subtract any payments and/or credits that we apply to
the cash advance balance. This gives us the daily
balance of cash advances. We then add all of the
daily balances of cash advances for the billing cycle
together and divide the total by the number of days in
the billing cycle. This gives us the average daily
balance of cash advances. Balance transfers are
calculated in the same manner as cash advances.

6. FOREIGN TRANSACTIONS - Purchases and cash
advances made in foreign currencies will be debited
from your account in U.S. dollars. The exchange rate
between the transaction currency and the billing
currency used for processing international
transactions is a rate selected by Visa from a range of
rates available in wholesale currency markets for the
applicable central processing date, which rate may
vary from the rate Visa itself receives or the
government-mandated rate in effect for the applicable
central processing date. The exchange rate used on
the processing date may differ from the rate that
would have been used on the purchase date or
cardholder statement posting date. A fee (finance
charge), calculated in U.S. dollars, will be imposed on
all foreign transactions, including purchases, cash
advances and credits to your account. A foreign
transaction is any transaction that you complete or a
merchant completes on your card outside of the
United States, with the exception of U.S. military
bases, U.S. territories, U.S. embassies or U.S.
consulates. The Foreign transaction Fee is set forth
on the Disclosure accompanying this Agreement.
7. FEES - In addition to the periodic rate, the following
additional fees may be imposed on your account. If
applicable to your account, the fee amounts and
explanations are disclosed on the Disclosure
accompanying this Agreement. Your account may
also be subject to additional fees as set forth on the
Disclosure accompanying this Agreement
a. Cards and Plastics Fee. If your account is subject
to a card order fee or card replacement fee, a fee may
be charged to your account for a rush replacement
card order and/or a customized Design Your Own
Card (DYOC) order or replacement.
b. Foreign Transaction Fee (Finance Charge). If
your account is subject to a Foreign Transaction Fee
(finance charge), a fee may be charged to your
account for transactions made outside of the United
States or in a foreign currency. d. Late Payment Fee.
A late fee will be charged to your account if you make
your payment later than the fifth day after the
payment's due date.
c. Cash Advance Fee (Finance Charge). If your
account is subject to a Cash Advance Fee (finance
charge), the fee will be charged to your account when
you obtain a cash advance from an ATM, the Credit
Union or other financial institution.
d. Late Payment Fee. A late fee will be charged to
your account if you make your payment later than the
fifth day after the payment's due date.

e. Returned Payment Fee. If your account is subject
to a Returned Payment Fee, the fee will be charged to
your account when a payment is returned for any
reason.
8. PAYMENTS - Each month you must pay at least
the minimum payment shown on your statement by
the date specified on the statement. You may pay
more frequently, pay more than the minimum
payment or pay the total new balance in full. If you
make extra or larger payments, you are still required
to make at least the minimum payment each month
your account has a balance (other than a credit
balance). The minimum payment is 2.00% of your
total new balance, or $25.00, whichever is greater,
plus the amount of any prior minimum payments that
you have not made, all outstanding unpaid fees and
charges, and any amount you are over your credit
limit by the date specified on the statement. The
Credit Union also has the right to demand immediate
payment of any amount by which you are over your
credit limit.
9. PAYMENT ALLOCATION - Subject to applicable
law, your payments may be applied to what you owe
the Credit Union in any manner the Credit Union
chooses. However, in every case, in the event you
make a payment in excess of the required minimum
periodic payment, the Credit Union will allocate the
excess amount first to the balance with the highest
annual percentage rate and any remaining portion to
the other balances in descending order based on
applicable annual percentage rate.
10. SECURITY INTEREST - You grant the Credit
Union a security interest under the Uniform
Commercial Code and under any common law rights
the Credit Union may have in any goods you
purchase. If you give the Credit Union a specific
pledge of shares by signing a separate pledge of
shares, your pledged shares will secure your account.
You may not withdraw amounts that have been
specifically pledged to secure your account until the
Credit Union agrees to release all or part of the
pledged amount.
Your Account is secured by all other shares you
have in any individual or joint account with the
Credit Union, except for shares in an Individual
Retirement Account or in any other account that
would lose special tax treatment under state or
federal law if given as security. These other
shares may be withdrawn unless you are in
default under this agreement. You authorize the
Credit Union to apply the balance in your
individual or joint share accounts to pay any
amounts due on your Account if you should
default.

Collateral securing other loans you have with the
Credit Union may also secure this loan, except that a
dwelling will never be considered as security for this
account, notwithstanding anything to the contrary in
any other agreement.
11. DEFAULT - Upon default, the entire outstanding
balance due under this Agreement shall, unless
excused by our Board of Directors, become
immediately due and payable, subject only to any
right to cure default which you may have under
Section 425.105 of the Wisconsin Statutes. A default
shall be deemed to have occurred if (a) you fail to
make payments when due on two occasions within
any 12-month period, or (b) you fail to observe any
other covenant of this Agreement, you or your spouse
die, change marital status, change marital domicile or
become insolvent or subject of a bankruptcy or other
insolvency proceeding, if such failure, act or
occurrence materially impairs your ability to pay the
amount due under this Agreement or breach of which
materially impairs the condition, value or protection of
the merchant's rights in any collateral securing the
transaction. In addition, notwithstanding Sections
425.103 and 425.105 of the Wisconsin Statutes, in
the event we receive a notice of termination of this
Agreement from the spouse of a borrower pursuant to
Section 766.565(5), Wisconsin Statutes, we may
declare the entire outstanding balance of the
Agreement immediately due and payable. If
immediate payment is demanded, you agree to
continue paying finance charges at the periodic rate
charged before the default, until what you owe has
been paid, and any shares that were given as security
for your account may be applied towards what you
owe.
12. LIABILITY FOR UNAUTHORIZED USELOST/STOLEN CARD NOTIFICATION – Notify us at
once at 888-432-8496 during normal business hours
or at (800) 449-7728 after hours or on weekends and
holidays, or write to us at PO Box 14047, Madison, WI
53708-0047 if you believe Your Card or PIN have
been lost or stolen, or if you believe that an electronic
fund transfer has been made without Your
permission. Telephoning is the best way of keeping
Your possible losses down. If you notify us within two
business days after you learn of the loss or theft of
Your Card or PIN, You can lose no more than $50 if
someone uses Your Card or PIN without your
permission. If You fail to notify us within two business
days after the loss or theft of Your Card or PIN and
We can prove that We could have stopped someone
from using Your Card or PIN without your permission
if You had told Us, then You could lose as much as
$500. Additionally, if Your periodic statement shows
transactions that You did not make, including those
made by Card, PIN or other means, You will tell at
Once. If You fail to notify Us within 60 days after We

mail you the first periodic statement on which the
transfer appears, You could lose up to the entire
credit line, if we can prove that We could have
stopped someone from taking Your money if You had
given Us notice in time. If a valid reason (such as a
long trip or hospital stay) keeps You from giving Us
notice, We will extend the time periods.
13. CHANGING OR TERMINATING YOUR
ACCOUNT - As permitted by law, the Credit Union
may change the terms of this Agreement and any
attached Disclosure from time to time. Notice of any
change will be given in accordance with applicable
law. To the extent permitted by law, changes to the
Agreement may apply to your existing account
balance as well as to future transactions.
Either you, your spouse or the Credit Union may
terminate this Agreement at any time, but termination
by you, your spouse or the Credit Union will not affect
your obligation to pay the account balance plus any
finance and other charges you or your spouse owe
under this Agreement. Your obligation to pay the
account balance plus any finance and other charges
you owe under this agreement are subject to all
applicable laws and regulations regarding repayment
requirements.
The card or cards you receive remain the property of
the Credit Union and you must recover and surrender
to the Credit Union all cards upon request or upon
termination of this Agreement whether by you or the
Credit Union.
14. CHANGING OR TERMINATING AUTHORIZED
USERS - Upon your request, we may issue additional
cards for authorized users that you designate. You
must notify us in writing of any termination of an
authorized user's right to access your account. Your
letter must include the name of the authorized user
and your account number and/or any subaccount
number issued to the authorized user along with the
authorized user's card and any convenience or other
access checks issued to the authorized user. If you
cannot return the authorized user's card or access
checks and if you request your account to be closed,
we will close your account and you may apply for a
new account.
15. CREDIT REVIEW AND RELEASE OF
INFORMATION - You authorize the Credit Union to
investigate your credit standing when opening or
reviewing your account. You authorize the Credit
Union to disclose information regarding your account
to credit bureaus and creditors who inquire about your
credit standing. If your account is eligible for
emergency cash and/or emergency card replacement
services, and you request such services, you agree

that we may provide personal information about you
and your account that is necessary to provide you
with the requested service(s).
16. RETURNS AND ADJUSTMENTS - Merchants
and others who honor your card may give credit for
returns or adjustments, and they will do so by sending
the Credit Union a credit slip which will be posted to
your account. If your credits and payments exceed
what you owe the Credit Union, the amount will be
applied against future purchases and cash advances.
If the credit balance amount is $1.00 or more, it will be
refunded upon your written request or automatically
after six (6) months.
17. ADDITIONAL BENEFITS/CARD
ENHANCEMENTS - The Credit Union may from time
to time offer additional services to your account, such
as travel accident insurance, at no additional cost to
you. You understand that the Credit Union is not
obligated to offer such services and may withdraw or
change them at any time.
18. MERCHANT DISPUTES - The Credit Union is not
responsible for the refusal of any merchant or
financial institution to honor your card. Please refer to
Your Rights if You Area Dissatisfied With Your Credit
Card Purchase of this agreement for more information
on merchant disputes.
19. JOINT ACCOUNTS - If this is a joint account,
each of you will be individually and jointly responsible
for paying all amounts owed under this Agreement.
This means that the Credit Union can require any one
of you individually to repay the entire amount owed
under this Agreement. Each of you authorizes the
other(s) to make purchases or cash advances
individually. Any one of you may terminate the
account and the termination will be effective as to all
of you.
20. EFFECT OF AGREEMENT - This Agreement is
the contract which applies to all transactions on your
account even though the sales, cash advances, credit
or other slips you sign or receive may contain different
terms.
21. NO WAVIER - The Credit Union can delay
enforcing any of its rights any number of times without
losing them.

23. SEVERABILITY AND FINAL EXPRESSION This Agreement and the Disclosure are the final
expression of the terms and conditions of your
account. This written Agreement and Disclosure may
not be contradicted by evidence of any alleged oral
agreement. Should any part of this Agreement or the
Disclosure be found to be invalid or unenforceable, all
other parts of this Agreement and Disclosure shall
remain in effect and fully enforceable to the fullest
extent possible under this Agreement.
24. COPY RECEIVED - You acknowledge that you
have received a copy of this Agreement and
Disclosure.
25 INTERNET GAMBLING TRANSACTIONS
PROHIBITED - You may not use your card to initiate
any type of electronic gambling transaction through
the Internet.
What To Do If You Find A Mistake On Your
Statement If you think there is an error on your
statement, write to us at:
Heritage Credit Union
1212 Huxley St
Madison, WI 53704
OR
PO Box 14047
Madison, WI 53708-0047
You may also contact us on the Web:
https://www.heritagecu.org/contact-us/
In your letter, give us the following information:
- Account information: Your name and account
number.
- Dollar amount: The dollar amount of the suspected
error.
- Description of the problem: If you think there is an
error on your bill, describe what you believe is wrong
and why you believe it is a mistake.

Your Billing Rights: Print this
Document for Future Use
You must contact us:

22. STATEMENTS AND NOTICES - Statements and
notices will be mailed to you at the appropriate
address you have given the Credit Union. If you both
reside at the same address, one copy of any notice
required by the Wisconsin Consumer Act will be sent
to both of you at that address; otherwise, separate
notices will be sent to separate addresses.

- Within 60 days after the error appeared on your
statement.
- At least 3 business days before an automated
payment is scheduled, if you want to stop payment on
the amount you think is wrong.

You must notify us of any potential errors in writing [or
electronically]. You may call us, but if you do we are
not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you if
we have already corrected the error.
2. Within 90 days of receiving your letter, we must
either correct the error or explain to you why we
believe the bill is correct. While we investigate
whether or not there has been an error:
- We cannot try to collect the amount in question, or
report you as delinquent on that amount.
- The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
- While you do not have to pay the amount in
question, you are responsible for the remainder of
your balance.
- We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
- If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
- If we do not believe there was a mistake: You will
have to pay the amount in question, along with
applicable interest and fees. We will send you a
statement of the amount you owe and the date
payment is due. We may then report you as
delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that
you are questioning your bill. We must tell you the
name of anyone to whom we reported you as
delinquent, and we must let those organizations know
when the matter has been settled between us.

If we do not follow all of the rules above, you do not
have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights if You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you
have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the
remaining amount due on the purchase. To use this
right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances from
an ATM or with a check that accesses your credit
card account do not qualify.
3. You must not yet have fully paid for the purchase. If
all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing [or
electronically] at:
Heritage Credit Union
1212 Huxley St
Madison, WI 53704
OR
PO Box 14047
Madison, WI 53708-0047
https://www.heritagecu.org/contact-us/
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

